No. 19-1039
In the

Supreme Court of the United States

PENNEAST PIPELINE COMPANY, LLC
PETITIONER,
V.

STATE OF NEW JERSEY, ET AL.
RESPONDENTS,
On Petition For Writ Of Certiorari
To The Third Circuit Court Of Appeals
RESPONDENTS’ SUPPLEMENTAL BRIEF

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29(5), I certify that on
December 23, 2020, Respondents’ Supplemental Brief was served on the
following individuals, via Overnight Courier and electronic service:
PAUL D. CLEMENT
Counsel of Record
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioner

Edward Lloyd
Counsel of Record
Morningside Heights Legal Services, Inc.
435 West 116th Street
New York, NY, 10027
(973) 495-3774
elloyd@law.columbia.edu
Counsel for Co-Respondent, New Jersey Conservation Foundation
Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
Counsel for United States, as Amicus Curiae

I declare under penalty of perjury that the forgoing is true and
correct.

Date: December 23, 2020
JEREMY M. FEIGENBAUM
Counsel of Record

